2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

E-Mail Address:.
contact@cocklelegalbriefs.com

Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
CAROL M. KAM, PRO SE,
Petitioner,
v.
JOHN B, PEYTON JR.,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that die PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3201 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL JiGTARY-State of Nebraska
B
RENEE i. GOSS
My Comm. Exp. September 5,2023

Notary Public

Z

Affiant

40003

